Case No. 20-1246

In The

Supreme Court of the United States
ANNA VALENTINE, Warden
Petitioner
v.
JOHNNY PHILLIPS
Respondent
On Petition for Writ of Certiorari to the United
States Court Of Appeals for the Sixth Circuit
Case No. 18-6184

PROOF OF SERVICE

The foregoing Supplemental Brief was filed electronically this 26th day of April,
2021, and was also mailed via United States Postal Service to the Clerk of this Court.
Further, I, Courtney J. Hightower, a member of the Bar of this Court, hereby
certify that on the 26th day of April, 2021, a copy of this Supplemental Brief was
mailed via United States Postal Service, postage prepaid, to Hon. Ryan M. Chabot,
Counsel for Respondent, Wilmer Cutler Pickering Hale and Dorr LLP, 250 Greenwich
Street, 7 World Trade Center, New York, NY 10007; Hon. Daniel Crump, Wilmer
1

Cutler Pickering Hale and Dorr LLP, 350 South Grand Avenue, Suite 2100, Los
Angeles, CA 90071.
/s/Courtney J. Hightower_
Courtney J. Hightower
Assistant Attorney General
Office of the Solicitor General
Criminal Appeals Unit
1024 Capital Center Drive
Frankfort, Kentucky 40601
(502) 696-5342
Counsel for Petitioner

2

